CERTIFICATE OF COMPLIANCE
Case No. 20-255
Caption: Mahanoy Area School District v. B.L.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 5,066 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 30, 2020

Samantha Collins
Record Press, Inc.

Sworn to before me on
November 30, 2020
JASMINE WILLIAMS

Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
Commission Expires September 16, 2023

0

Notary Public

